2311 Douglas Street
Omaha, Nebraska 68102-1214

COCKLE

Le g al Brie fs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-117

INVERSIONES Y PROCESADORA
TROPICAL INPROTSA, S.A.,
Petitioner,

Vv.
DEL MONTE INTERNATIONAL GMBH,
Respondent.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 26th day of August, 2019, send out
from Omaha, NE 1 package(s) containing 3 copies of the BRIEF IN OPPOSITION TO PETITION FOR A WRIT OF
CERTIORARI in the above entitled case. All parties required to be served have been served by third-party commercial
carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
BRIAN J. STACK
Counsel of Record
ROBERT HARRIS
DENISE B. CROCKETT
STACK FERNANDEZ & HARRIS, P.A.
1001 Brickell Bay Drive
Suite 2650
Miami, Florida 33131-3225
(305) 371-0001
bstack@stackfernandez.com
Attorneys for Respondent

Subscribed and sworn to before me this 26th day of August, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . .
State of Nebraska . LG

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38580
 

 

Attorneys for Petitioner

Richard Charles Lorenzo
Counsel of Record

Hogan Lovells US LLP (305) 459-6652
600 Brickell Avenue, Suite 2700
Miami, FL 33131

Richard.lorenzo@hoganlovelis.com

Party name: Inversiones y Procesadora Tropical INPROTSA, S.A.

 

 
